,,"~ :;EHVJC£,J,'




(~
.~ ~~
"'./Vd30l
                     DEPARTMENTOF
                     DEPARTMENT OFHEALTH
                                   HEALTH&&HUMAN
                                            HUAN SERVICES
                                                 SERVICES                                                                Office
                                                                                                                         Office of
                                                                                                                                 ofInspector



                                                                                                                         Washington,
                                                                                                                                    Inspector General



                                                                                                                         Washington, D.C.
                                                                                                                                     D.C. 20201
                                                                                                                                               General




                                                                                                                                          20201




                                                                            OCT
                                                                            OCT -- 88 2008

                                                                                      2008

          TO:
          TO:                    Kerry Weems
                                 Kerry Weems
                                 Acting  Administrator
                                 Acting Administrator
                                 Centers for
                                 Centers for Medicare && Medicaid Services


          FROM:                   Daniel R.
                                  Daniel R. Levinson
                                  Inspector General
                                                            1~.ø
                                                             V
          SUBJECT:                Review of 
 of Louisiana's Hurricane Katrina Healthcare Related Provider
                                  Review                                                          Provider
                                  Stabilization Grant (A-06-08-00025)


          Attached is
                   is an advance copy of our final report on Louisiana's
                                                             Louisiana's Hurricane
                                                                          Hurricane Katrina
                                                                                      Katrina Healthcare
                                                                                              Healthcare
                  Provider Stabilization
          Related Provider Stabilization grant
                                         grant (the
                                               (the grant).
                                                    grant). We
                                                            We will issue this report to the Louisiana
          Department of Health and Hospitals (the State agency) within 5 business days.

          Section
          Section 620 620 1(a)(4)     of the Deficit Reduction
                          1 (a)(4) of 
              Reduction Act
                                                               Act of2005
                                                                    of2005 gave the
                                                                                 the Secretary
                                                                                     Secretary ofthe
                                                                                               ofthe Department of
          Health and Human Services the authority to make payments to eligible States     States for restoring access
          to health care in communities impacted by Hurricane Hurricane Katrina.
                                                                         Katrina. The
                                                                                  The Secretary made
                                                                                      Secretary  made this
                                                                                                        this funding
                                                                                                             funding
          available to Katrina-affected States through an initial and a supplemental grant so the States   States
          could make payments to hospitals and other providers facing higher wage rates that are         are not yet
          reflected in the Medicare prospective payments system.   system.

          Louisiana was awarded $97,856,532 through the initial and a supplemental grant. grant. In
                                                                                                  In accordance
                                                                                                     accordance
          with the terms ofof the initial and supplemental grants,
                                                            grants, payments were
                                                                             were to
                                                                                  to be
                                                                                     be allocated
                                                                                         allocated only
                                                                                                    only to
                                                                                                         to
          facilities that were operating when the grant funds were disbursed and    that were  in impacted
                                                                               and that were in impacted
          communities. The The State
                                State agency
                                       agency administered
                                               administered the
                                                             the grant.
                                                                 grant.

          Our objective was to determine whether the State
                                                      State agency computed the grant
                                                                                  grant payments
                                                                                        payments in
                                                                                                 in
          accordance with the terms of the
          accordance with the terms of 
   grant award and  Federal
                                                       and Federal  and State requirements.
                                                                        State requirements.

          The State
                  State agency followed the             the approved
                                                              approved methodology
                                                                        methodology for     for computing
                                                                                                  computing the   the grant
                                                                                                                       grant payments
                                                                                                                             payments toto
          hospitals, skilled nursing    nursing facilities,
                                                     facilities, community
                                                                  community mental
                                                                                mental health
                                                                                            health centers,
                                                                                                        centers, and
                                                                                                                   and inpatient
                                                                                                                        inpatient psychiatric
                                                                                                                                   psychiatric
          facilities that were eligible to receive payments. However,             However, the      the State
                                                                                                          Stateagency
                                                                                                                agencyincorrectly
                                                                                                                          incorrectly recorded
                                                                                                                                       recorded
           contract
          contract labor labor
                          expenses expenses
                                   and the number and
                                                  of      the number ofhours
                                                                           hours  contractors
                                                                              contractors  worked for 5worked
                                                                                                        of
      for 5 of the
                                                                                                                           the 60 hospitals.
                                                                                                                                   hospitals. As
                                                                                                                                               As
          aaresult
             resultof of thethedatadata
                                     entry entry   errors,
                                           errors, most  of 
  most of the
                                                                       the hospitals
                                                                            hospitals received
                                                                                          received an    an incorrect
                                                                                                             incorrect grant
                                                                                                                         grant payment,
                                                                                                                               payment,
          ranging
           ranging from from a $60,162 overpayment to a $60,942 underpayment. Two                              Twohospitals
                                                                                                                      hospitals received
                                                                                                                                 received the
                                                                                                                                           the
          correct
           correct amount,
                       amount, 55     55 hospitals
                                           hospitals received
                                                           received overpayments
                                                                    overpayments rangingranging from   from $1$1 to
                                                                                                                  to $60,162,
                                                                                                                     $60,162, and
                                                                                                                                and 33hospitals
                                                                                                                                       hospitals
Page 2 – Kerry Weems


received underpayments ranging from $651 to $60,942. The overpayments and underpayments
did not affect the total amount awarded under the grant.

We recommend that the State agency use the results of this review to adjust incorrect grant
payments received by the hospitals.

In its written comments on our draft report, the State agency agreed with our recommendation.
The State agency said that it would request refunds from hospitals that were overpaid and
redistribute the funds to hospitals that were underpaid.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-08-00025.


Attachment
to~~~~~~L.t.
   ""~~--S. E'VI"£$.l.~1'




{/.'~
 ö~~~~~~L.
                              DEPARTMENTOF
                             DEPARTMENT  OFHEALTH
                                            HEALTH& &HUMAN
                                                      HUMA SERVICES
                                                           SERVICES                                                   Office
                                                                                                                       Offceof
                                                                                                                             ofAudit
                                                                                                                                AuditServices
                                                                                                                                      Servces



                                                                                                                      Region
                                                                                                                       RegionVIVi
                                                                                                                      1100
                                                                                                                       1100Commerce,
                                                                                                                             Commerce,Room
                                                                                                                                       Room632
                                                                                                                                            632
                                                                                                                      Dallas,
                                                                                                                       Dallas,TX
                                                                                                                               TX75242
                                                                                                                                  75242
                                                                          OCT
                                                                           OCT 1
                                                                               1 5 2008
                                                                                 5 2008

                       ReportNumber:
                       Report Number: A-06-08-00025
                                      A-06-08-00025

                       Mr. Jerry
                       Mr.  Jerr Phillips
                                  Phillps

                       Medicaid   Director
                       Medicaid Director
                       Louisiana   Deparent of
                       Louisiana Department  ofHealth   and Hospitals
                                                 Health and Hospitas
                       628
                       628 N. 4 N.
                               th
                                  Street4th Street .

                        th Ploor
                       7th
                       7 Floor
                       Baton Rouge,
                       Baton  Rouge, Louisiana
                                      Louisiana 70802
                                                70802

                        Dear Mr.
                        Dear Mr. Phillips:
                                 Phillips:

                       Enclosed       is the U.S. Department of Health
                       Enclosed is the U.S. Deparment of 

                                                                                  and Services
                                                                       Health and Human Human       Services
                                                                                               (HHS), Offce of
  (HHS), Office ofInspector
                                                                                                                                     Inspector
                       General (DIG), final report entitled "Review of Louisiana's Hurricane
                       General (OIG), final report entitled 
          "Review of 
                        Huricane Katrina
                                                                                                                        Katrina Healthcare
                                                                                                                                 Healthcare
                       Related Provider
                       Related      Provider Stabilization
                                                   Stabilization Grant."
                                                                  Grant. " We
                                                                            We will     forward aa copy
                                                                                   will forward         copy of of this
                                                                                                                   this report
                                                                                                                        report to
                                                                                                                               to the
                                                                                                                                  the HHS
                                                                                                                                      HHS action
                                                                                                                                            action
                       offcial noted
                       official    noted on  on the
                                                  the following   page for
                                                        following page  for review
                                                                              review andandany anyaction
                                                                                                      actiondeemed
                                                                                                                deemednecessary.
                                                                                                                         necessar.

                        The HHS
                        The    HHS action
                                        action official
                                                   official willwill make
                                                                       make fmal finaldetermination
                                                                                          determnation asas to
                                                                                                             to actions
                                                                                                                actions taken
                                                                                                                         taen on
                                                                                                                               onall
                                                                                                                                  all matters
                                                                                                                                      matters reported.
                                                                                                                                               reported.
                        We request that you respond to this official within 30 days from the date of this
                        We request that you respond to ths offcìal within 30 days from the date of

                                                                                                                                 this letter.
                                                                                                                                      letter. Your
                        response
                        response shouldshould present
                                                   present any any comments
                                                                      comments or      or additional
                                                                                            additional information
                                                                                                       information that
                                                                                                                     that you
                                                                                                                           you believe
                                                                                                                               believe may
                                                                                                                                        may have
                                                                                                                                              have aa
                        bearg      on   the    final   determnation.
                        bearing on the final determination.

                        Pursuant to the principles of the Freedom
                        Pursuant to the principles of 
              ofInformation Act,
                                                          Freedom ofInformation        Act, 55 U.S.C.
                                                                                               U.S.c. § 552,
                                                                                                         552, asas amended
                                                                                                                    amendedby by
                        Public Law  104-231,   OIG  reports generally   are made   available  to the  public to the
                        Public Law 104-231, OIG reports generally are made available to the public to the extent the extent the
                        information  is not
                        information is  not subject
                                            subject to
                                                    to exemptions
                                                       exemptions inin the
                                                                       the Act
                                                                            Act (45
                                                                                 (45 CFR
                                                                                     CPR part
                                                                                           par 5).
                                                                                                 5). Accordingly,
                                                                                                     Accordingly, this
                                                                                                                     this report
                                                                                                                          report
                        will  be  posted   on  the  Internet   at  http://oig.hhs.gov.
                        will be posted on the Internet at http://oig.hhs.gov.                   .

                                                                                                 .

                       If you have any questions or comments
                        If you have any questions or 

                                                       comments about this report
                                                                               report, please
                                                                                       pleasedo
                                                                                              do not
                                                                                                  nothesitate
                                                                                                      hesitate to
                                                                                                                to call
                                                                                                                   call me,
                                                                                                                        me, or
                                                                                                                            or contact
                                                                                                                               contact
                       Trish Wheeler,     Audit  Manager,  at (214) 767-6325    or though  e-mail at trish.wheeler(qoig.hhs.gov.
                       Trish Wheeler, Audit Manager, at (214) 767-6325 or through e-mail at trish.wheeler@oig.hhs.gov.
                       Please
                       Please refer
                               refer to
                                     to report
                                         report number
                                                numberAA-06-08-00025
                                                          -06-08-00025 inin all
                                                                            all correspondence.
                                                                                 correspondence.

                                                                                   Sincerely,
                                                                                   Sincerely,


                                                                               1kdw ~~yJ ~
                                                                                  Gordon
                                                                                  GordonL.L.Sato
                                                                                             Sato
                                                                                  Regional
                                                                                  Regional Inspector
                                                                                            InspectorGeneral
                                                                                                     General
                                                                                   for
                                                                                    forAudit
                                                                                       AuditServices
                                                                                              Services


                       Enclosure
                        Enclosure
Page 2 -'- Mr. Jerry Phillips


Direct Reply to IDIS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



     REVIEW OF LOUISIANA’S
      HURRICANE KATRINA
     HEALTHCARE RELATED
    PROVIDER STABILIZATION
            GRANT




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-06-08-00025
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Section 6201(a)(4) of the Deficit Reduction Act of 2005, which was not funded from the
Medicare Trust Fund, gave the Secretary of the Department of Health and Human Services the
authority to make payments to eligible States for restoring access to health care in communities
impacted by Hurricane Katrina. Pursuant to 72 Fed. Reg. 9538 (Mar. 2, 2007) and 72 Fed. Reg.
48648 (Aug. 24, 2007), the Secretary made this funding available to Katrina-affected States
through an initial and a supplemental Hurricane Katrina Healthcare Related Provider
Stabilization grant (the grant) so the States could make payments to hospitals and other providers
facing higher wage rates that are not yet reflected in the Medicare prospective payments system
methodologies. Pursuant to 73 Fed. Reg. 34024 (June 16, 2008), a second supplemental grant
was issued after our review period. This grant is not discussed in this report.

Louisiana was awarded $97,856,532 through the initial and a supplemental grant. The initial
grant funds, totaling $71,633,492, were to be allocated among all eligible hospitals and skilled
nursing facilities (SNF). The supplemental grant funds, totaling $26,223,040, were to be
allocated among all eligible hospitals, SNFs, community mental health centers (CMHC), and
inpatient psychiatric facilities (IPF). In accordance with the terms of the initial and supplemental
grants, payments were to be allocated only to facilities that were operating when the grant funds
were disbursed and that were in impacted communities. The Louisiana Department of Health
and Hospitals (the State agency) administered the grant.

OBJECTIVE

Our objective was to determine whether the State agency computed the grant payments in
accordance with the terms of the grant award and Federal and State requirements.

SUMMARY OF FINDINGS

The State agency followed the approved methodology for computing the grant payments to
hospitals, SNFs, CMHCs, and IPFs that were eligible to receive payments. However, the State
agency incorrectly recorded contract labor expenses and the number of hours contractors worked
for 5 of the 60 hospitals. As a result of the data entry errors, most of the hospitals received an
incorrect grant payment, ranging from a $60,162 overpayment to a $60,942 underpayment. Two
hospitals received the correct amount, 55 hospitals received overpayments ranging from $1 to
$60,162, and 3 hospitals received underpayments ranging from $651 to $60,942. (See Appendix
A for the overpayment or underpayment that each hospital received.) The overpayments and
underpayments did not affect the total amount awarded under the grant.




                                                 i
RECOMMENDATION

We recommend that the State agency use the results of this review to adjust incorrect grant
payments received by the hospitals.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed with our recommendation.
The State agency said that it would request refunds from hospitals that were overpaid and
redistribute the funds to hospitals that were underpaid. The State agency’s comments are
included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION.............................................................................................................................1

          BACKGROUND ....................................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................................1
               Objective .....................................................................................................................1
               Scope ..........................................................................................................................1
               Methodology ..............................................................................................................2

FINDINGS AND RECOMMENDATION......................................................................................2

          FEDERAL AND STATE REQUIREMENTS........................................................................3

          DATA ENTRY ERRORS ON HOSPITAL PAYMENT SPREADSHEETS ........................3

          RECOMMENDATION ..........................................................................................................4

          STATE AGENCY COMMENTS.............................................................................……. …4

APPENDIXES


          A – HURRICANE KATRINA HEALTHCARE RELATED PROVIDER
               STABILIZATION GRANT OVERPAYMENTS AND UNDERPAYMENTS TO
               HOSPITALS

          B – STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Since Hurricane Katrina hit the Gulf Coast in 2005, hospitals, skilled nursing facilities (SNF),
community mental health centers (CMHC), and inpatient psychiatric facilities (IPF) in impacted
communities may have had difficulty hiring and retaining staff because of increased wage rates
paid by employers competing for health care workers. Section 6201(a)(4) of the Deficit
Reduction Act of 2005 (DRA) gave the Secretary of the Department of Health and Human
Services the authority to make payments to States for restoring access to health care in
communities impacted by Hurricane Katrina. 1 Pursuant to 72 Fed. Reg. 9538 (Mar. 2, 2007) and
72 Fed. Reg. 48648 (Aug.24, 2007), the Secretary made this funding available to Katrina-
affected States through an initial and a supplemental Hurricane Katrina Healthcare Related
Provider Stabilization grant (the grant) so the State could make payments to hospitals and other
providers facing higher wage rates that are not yet reflected in the Medicare prospective
payments system methodologies. 2 3

Louisiana was awarded $97,856,532 through the initial and a supplemental grant. The initial
grant funds, totaling $71,633,492, were to be allocated among all eligible hospitals and SNFs.
The supplemental grant funds, totaling $26,223,040, were to be allocated among all eligible
hospitals, SNFs, CMHCs, and IPFs. In accordance with the terms of the initial and supplemental
grants, payments were only to be allocated to facilities that were operating when the grant funds
were disbursed and that were in impacted communities. The Louisiana Department of Health
and Hospitals (the State agency) administered the grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency computed the grant payments in
accordance with the terms of the grant award and Federal and State requirements.

Scope

Our audit included $97,856,532 in grant funds that the State agency paid to hospitals, SNFs,
CMHCs, and IPFs. The grant payments began in February 2007 and were to be completed by
the end of Federal fiscal year 2009. As of the end of our fieldwork, all of the grant funds had
been paid to the eligible facilities.



1
    Section 6201(a)(4) of the DRA was not funded from the Medicare Trust Fund.
2
 The grant is referred to as the Medicare Wage Index Stabilization grant in other Office of Inspector General Katrina
audits.
3
 Pursuant to 73 Fed. Reg. 34024 (June 16, 2008), a second supplemental grant was issued after our review period.
This grant is not discussed in this report.


                                                         1
We did not review the State agency’s overall internal control structure. We limited our review to
obtaining an understanding of the methodology the State agency used to determine the grant
amount to be awarded to each provider. The State obtained wage data from surveys of
qualifying hospitals. We did not independently verify the validity of these responses.

We conducted our fieldwork at the State agency in Baton Rouge, Louisiana, in November 2007.

Methodology

To accomplish our objective, we:

   •   reviewed the notice of grant awards, the DRA, Federal Registers, and Louisiana’s
       applications for Federal assistance for the grant;

   •   interviewed Centers for Medicare & Medicaid Services (CMS) officials to obtain an
       understanding of the grant process;

   •   interviewed State employees to obtain an understanding of the methodology the State
       agency used in determining the grant amounts for each provider;

   •   verified that the information entered on the initial and supplemental grant payment
       spreadsheets matched the supporting documentation;

   •   determined whether facilities that received grant payments were located in “impacted”
       communities affected by Hurricane Katrina;

   •   determined whether facilities that received grant payments were operating when the grant
       funds were disbursed; and

   •   determined whether grant payments were allocated based on the CMS-approved
       methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The State agency followed the approved methodology for computing the grant payments to
hospitals, SNFs, CMHCs, and IPFs that were eligible to receive payments. However, the State
agency incorrectly recorded contract labor expenses and the number of hours contractors worked
for 5 of the 60 hospitals. As a result of the data entry errors, most of the hospitals received an
incorrect grant payment, ranging from a $60,162 overpayment to a $60,942 underpayment. Two
hospitals received the correct amount, 55 hospitals received overpayments ranging from $1 to


                                                2
$60,162, and 3 hospitals received underpayments ranging from $651 to $60,942. (See Appendix
A for the overpayment or underpayment that each hospital received.) The overpayments and
underpayments did not affect the total amount awarded under the grant.

FEDERAL AND STATE REQUIREMENTS

Section 6201(a)(4) of the DRA gave the Secretary of the Department of Health and Human
Services the authority to make payments to eligible States for restoring access to health care in
communities impacted by Hurricane Katrina. Pursuant to 72 Fed. Reg. 9538 (Mar. 2, 2007) and
72 Fed. Reg. 48648 (Aug. 24, 2007), the Secretary made this funding available to Katrina-
affected States through the initial and a supplemental grant so the States could make payments to
hospitals and other providers facing higher wage rates that are not yet reflected in the Medicare
prospective payments system methodologies.

Pursuant to the Federal Register notices, payments were to be allocated only to facilities that
were operating when the grant funds were disbursed and that were in impacted communities. 4
The States’ payment methodologies were subject to the approval of CMS. The States had some
flexibility in determining the methodology to determine the timing and amount of provider
payments, but the methodology had to reflect each provider’s share of total Medicare payments
during a specified period of time.

The State agency submitted two applications to CMS—one for the initial grant and one for the
supplemental grant. Each application detailed the methodology that would be used by the State
to determine the provider payments. The methodology was different for each type of facility.
CMS approved the applications submitted by the State for the initial and supplemental grants.5

The initial grant funds were to be allocated among all eligible hospitals and SNFs. The
supplemental grant funds were to be allocated among all eligible hospitals, SNFs, CMHCs, and
IPFs.

DATA ENTRY ERRORS ON HOSPITAL PAYMENT SPREADSHEETS

For the pool of grant funds designated for “Hospitals-Medicare Inpatient Part A,” Louisiana’s
CMS-approved applications for the initial and supplemental grants both state that each qualifying
hospital will be paid its proportionate share of the grant pool based on its Medicare Part A
inpatient acute prospective payments for dates of service in the first two quarters of calendar year




4
 For purposes of the grant, CMS defined “impacted communities” as the counties or parishes located in Louisiana,
Alabama, or Mississippi that the Federal Emergency Management Agency designated to receive individual and
public assistance as authorized by Section 408 of the Robert T. Stafford Act.
5
 Each State application was approved through a Notice of Award from CMS. The terms and conditions of each
Notice of Award required the State to adhere to the approved payment methodology in the State’s application,
unless the Project Officer approved a change to that methodology.


                                                        3
2005. 6 Payments were to be weighted by the State agency based on the percentage of change in
wage index data between the second calendar year quarter of 2005 and the fourth calendar year
quarter of 2006. The wage data was to be obtained by the State agency from surveys of
qualifying hospitals.

In its grant payment spreadsheets, the State agency incorrectly entered contract labor expenses,
which include expenses for wages and fringe benefits, and contract labor hours obtained from
five hospital surveys. Specifically, the State agency entered the number of hours worked in the
cell for contract labor expense and left blank the cell for hours worked.

Because the State agency incorrectly entered the contract labor expense and hours-worked
information into the payment spreadsheets that calculated each hospital’s pro rata share of the
grant pool, most hospitals were awarded an incorrect amount. The incorrect grant payments
ranged from a $60,162 overpayment to a $60,942 underpayment. Two hospitals received the
correct amount, 55 hospitals received overpayments ranging from $1 to $60,162, and 3 hospitals
received underpayments ranging from $651 to $60,942.

RECOMMENDATION

We recommend that the State agency use the results of this review to adjust incorrect grant
payments received by the hospitals.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency agreed with our recommendation.
The State agency said that it would request refunds from hospitals that were overpaid and
redistribute the funds to hospitals that were underpaid. The State agency’s comments are
included in their entirety as Appendix B.




6
 In addition, the application for the supplemental grant contains a methodology for making payments to hospitals
that were not operational in the first two calendar quarters of 2005 but became operational before the end of calendar
year 2006.


                                                          4
APPENDIXES
                                                      APPENDIX A


HURRICANE KATRINA HEALTHCARE RELATED PROVIDER STABILIZATION
    GRANT OVERPAYMENTS AND UNDERPAYMENTS TO HOSPITALS


                Overpayment                   Overpayment
    Hospital   (Underpayment)     Hospital   (Underpayment)
       1             $168           31            $2,543
       2              245           32                 1
       3            1,451           33                 3
       4            1,268           34              225
       5          (24,164)          35              118
       6                3           36              692
       7               84           37                 9
       8            1,523           38                 5
       9                5           39               22
     10                 1           40          (60,942)
     11               274           41              118
     12               365           42              176
     13               259           43            1,136
     14             1,379           44               11
     15                 0           45              225
     16                53           46            1,371
     17               981           47               27
     18              (651)          48              522
     19               358           49              944
     20               166           50           60,162
     21               599           51              127
     22               575           52                 7
     23             1,476           53                 0
     24               337           54                17
     25               722           55              186
     26             1,594           56              249
     27               179           57              902
     28               267           58                46
     29               283           59                82
     30             1,183           60                32
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
